                                             FILE COpy


           P RO   P HIE   J Y   of   PHYSICIANS'

     RECEIPT of FEDERAL, PA YMENTS




.' OFFICE OF I' NSPECTOR GENERAL

    OFF ICE OF . ANALYSIS AND INSPECTIONS




                                            OCTOBER 1986

                                           Offiee of the Inspector General


  The mission of the Office of the Inspector General 

                                                     (OIG) is to

  t'romote the eff iciency,
  in the . Uni                                   effectiveness and integri ty of programs
                           ted Stat'es Department of Health and Human Services
  (HHS). It does this by developing methods to detect and prevent

  fraud, waste and abuse. Created  by statute in 1976, the
 tnspector General keeps both the Secretary and the Congress fully

 and currently informed about programs or management problems and

 recommends correcti ve action. The OIG   erforms its mission by
 conducting audits, investigations and inspections with

 approximately 1, 200 staff strategically loc ted around the
 country.

                                     Office of Analysis and Inspections


This report is produced by the Office of Analysis and Inspections
(OAI), one of the three major offiees within the
two are the Off ice of Audi t and the Off ice of InvesOIG. The other
                                                       tigations .
OAI conducts inspections which are typically, short-term studies

  signed to determine program effect1ve es$, efficieney and

vulnerabi Ii ty to fraud or abuse.



                                                    This Report


Enti tIed " Propr iety
                    of Physicians ' Receipt of Federal Payments,
this study was conducted to determine whether the Social Security
administrative structure and Social Security benefits were
vulnerable to abuse by certain problem                             physicians.
The report was prepared by the Regional Inspector
                                                  General, Office

of Analysis and Inspections, Region VI and the Office of Analysis

and Inspections Social Security Branch 

                     PROPRIETY OF PHYSICIANS'

                   RECEIPT OF   FEDER PAYMENTS




RICHAD P. KUSSEROW                              DATE OF INSPECTION

INSPECTOR GENER                                 OCTOBER 19 86



OAI- 06-86-00067
        -"",.. ,. -- -   -'--           =,­
 - - -_..
                                ""''' ""'




EXECUTIVE SUMMY

The Inspector General began this study after discovering a
physician barred from the Medicare program had obtained Social
Security disability benefits based upon false medical evidence.
The purpose of the study was to determine whether the Social
Securi ty Administration I (SSA) administrative structure, and Social
Security benefits, were vulnerable to fraud or abuse by physicians
wi th known or suspected problems. (These physicians were those
barred from the Medicare program, in default on Health and Human
Services loans, or identified by the U. S. Postal Service as
having suspect medical credentials.    The study was completed by
reviewing all active SSA disability cases from the problem
physicians, reviewing employment records of the Social Security
Administration and State Disability Determination Service (DDS)
offices in the region assigned to this study, and by reviewing
DDS records to determine if problem physicians were engaged in
providing consultative examinations.

We are pleased that our study surfaced no major problems.


    The Social Security Administration is providing State DDS

    offices information on debarred physicians, and Disability

    Determination Service offices are using the listings to

    screen candidates for consultant services. None of the

    physicians were employed by the Social Security

    Administration or by the State DDS offices.


    We did find one physician in loan default and with an

    indirect role in the Disability Determination Service

    consultative process. The physician was one of many

    physicians employed by a clinic providing consultative

    services.
    The review of disability files on problem physicians did not

    surface additional fraud.
    We recommend that the State Disability Determination Service
    offices carefully review medical evidence submitted on behalf
    of debarred physicians to prevent fraudulent entitlement.
                  TABLE OF CONTENTS




                                      PAGE



EXECUTIVE SUMMY

PURPOSE

BACKGROUND

METHODOLOGY

FINDINGS

CONCLUSION

RECOMMNDATIONS
                                      3-4




                          i i

                                                I RECEIPT OF   FEDERA PAYMENTS
      PROPRIETY OF PHYSICIANS



      PURPOSE

      The purpose of this inspection was to determine the
      vulnerabili ty of Health and Human Services (HHS) programs
      to physicians who are known abusers of the Medicare or
      Medicaid programs.
                                                  either:
      For this inspection, abusers are defined as 


         physicians debarred for Medicare and or Medicaid

         violations



         individuals identified by the U. S. Postal Service as

         having suspect medical credentials 




         physicians who are in default on loans from the

         Department.

II.   BACKGROUND

      The Social Security Administration (SSA) relies heavily on

      preexisting medical evidence and consultative examinations

      purchased from physicians by the State Disability

      Determination Service (DDS) in determining a claimant'
      eligibili ty for payments as a disabled individual. In one
      known instance, this determination had been made on the
      basis of the claimant' s submission of falsified medical
      records attesting to a nonexisting disability. This
      claimant was a physician who had also been found to have
      commi tted criminal violations in the Medicare program.

      Medical practitioners who engaged in criminal or abusive
      practices in the Medicare or Medicaid programs may be
      sanctioned by the Secretary of HHS from future
      participation in those programs. The Office of Inspector
      General periodically informs SSA of physicians who have
      been sanctioned and who should be precluded from serving as
      a staff or consultant physician for the State DDS.
      Although not previously explored, this same preclusion

      could apply to individuals identified by the U. S. Postal

      Service as having suspect medical credentials as well as to

      those physicians who have defaulted on education loans from

      the Department.




                                                - I ­

       ,.- - ,"'      ._..
                   ..-_      -""    '''=-''   . "- " . - '.   -.. ..-   ..,.--




III.      METHODOLOGY

          Records of sanctioned physicians through December 1984 and

          indi viduals with suspect medical credentials were compared
          to SSA' s Master Beneficiary Record and Supplemental

          Security Record to identify those receiving payments as

          disabled individuals. The disability claim folders were

          then reviewed to identify any with suspect medical
           evidence.  For purposes of this inspection, suspect medical
          evidence is defined as:
                          evidence that originates from a single treating

                          physician that is unsupported by other preexisting or

                          subsequently obtained medical evidence, such as a

                          consultative examination~ or

                          evidence that is clearly in contradiction with other

                          medical evidence in                               file.
            In a second phase of this inspection, these same records,
            plus those pertaining to physicians who had defaulted on HHS
            loans, were compared to DDS records in the five States
            comprising the Dallas region to determine if any abuser was
            serving on the staff or as a consultant examiner for the
            DDS. This latter review was limited to the Dallas region
            because the State records needed for this review were only
            available in a paper format requiring a labor intensive
            manual records check.


IV.          FINDINGS
             This inspection revealed:


             A. Abuser Receipt of Disability Payments


                          Of the 190 debarred physicians, 16 had applied for

                          disability benefits.  Six of these were denied and two
                          died shortly after entitlement. Of the remaining eight
                          cases, only the case that led to the initiation of this
                          inspection involved the receipt of payments under
                          fraudulent circumstances. No new cases involving
                          suspect medical evidence were discovered.

                          Only two of the 165 individuals with suspect medical

                          credentials received disability payments. Neither of
                          these involved suspicious circumstances.





                                                                                 - 2 ­

      B. Abuser Involvement in the Disability Determination

         Process
         The DDS in the five States comprising the Dallas region
         were free of any significant involvement by the abusers.
         None of the known abusers were working on the staff of
         the DDS or as consultative examiners. In only one
         instance was a physician who had defaulted on an HHS
         educa tion loan di scovered to have a connection wi th a
         State DDS. This connection was rather remote, in that
         the physician was employed by a clinic performing
         consultant examinations for the Louisiana State DDS.


      CONCLUSION

      Based on our review in the Dallas region no additional

      actions, beyond those currently in place, appear necessary

      to exclude abusers from the disability determination

      process.  However, since thi s review was limited to the
      Dallas region DDS' s, we cannot say with assurance that

      these results apply nationally.


      Al though no new cases of fraudulent disability payments
      were discovered among the 190 debarred physicians, the
      instant case that led to this inspection demonstrates that
      the disability determination process is vulnerable to
      manipulation by unscrupulous physicians. Physicians, by
      virtue of their knowledge and experience, can readily
      fabricate convincing evidence of a nonexistent medical
      condition that will (as in the instant case) satisfy SSA'
      requirements for a favorable disability determination.
      Though all medical doctors pose some degree of risk in
      si tuations where the disability determination is based on a
      single source of medical evidence, the sanctioned
      physicians would seem to pose the greatest risk since they
      have evidenced a diminished credibility through their
      actions to defraud the Medicare and Medicaid programs.


VI.   RECOMMNDATIONS

      The Commissioner of Social Security   should:
      A. Remind State Disability Determination Services (DDS) to

         exclude sanctioned physicians from the disability

         determination process.
                                                       I s should
         Distributing copies of this report to the DDS 

         highlight the need for continued vigilance in excluding

         the sanctioned physicians from the consultative

         examination or staff medical consultant positions.


                              - 3 ­

B. Use the listings of sanctioned physicians to screen
   physician claimants for suspect medical evidence.
   Instruct the State DDS' s to use the listings of

   sanctioned physicians generated by the Office of
   Inspector General to identify those who are applying for

   disability benefits and to stringently review the

   medical evidence submitted in connection with such

   claims.   Consultative examinations should be requested
   in cases where conflicting medical evidence has been
   provided or the only evidence establishing the

   disabili ty originated from a single source.




                         - 4 ­

